No. ______

In the

Supreme Court of the United States
INFOBIONIC, INC.,
Petitioner,
V.

CARDIONET, LLC AND
BRAEMAR MANUFACTURING, LLC,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

VOLUME II OF II OF APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
CHARLES H. SANDERS
LATHAM & WATKINS LLP
200 Clarendon Street
27th Floor
Boston, MA 02116

GREGORY G. GARRE
Counsel of Record
GABRIEL K. BELL
MAXIMILIAN A. GRANT
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
Counsel for Petitioner

TABLE OF CONTENTS
Page
VOLUME I
Opinion of the United States Court of Appeals for the Federal Circuit,
CardioNet, LLC v. InfoBionic, Inc., No. 2019-1149, 955 F.3d 1358 (Fed.
Cir. Apr. 17, 2020) ................................................................................................. 1a
Memorandum and Order of the United States District Court for the District of
Massachusetts, CardioNet, LLC v. InfoBionic, Inc., No. 1:17-cv-10445-IT,
348 F. Supp. 3d 87 (D. Mass. Oct. 16, 2018) ...................................................... 38a
Order of the United States Court of Appeals for the Federal Circuit Denying
Petition for Rehearing, CardioNet, LLC v. InfoBionic, Inc., No. 2019-1149
(Fed. Cir. June 4, 2020) ....................................................................................... 60a
35 U.S.C. § 101 ........................................................................................................... 61a
VOLUME II
U.S. Patent No. 7,941,207 B2 (May 10, 2011) .......................................................... 62a

62a

US007941207B2

(12) United States Patent

(10) Patent No.:

Korzinov

(54)

CARDIAC MONITORING

(75)

Inventor.

.

(45) Date of Patent:
4,977,899 A

~

.

,

5,197,479 A

.

Notice:

5,365,935 A

Subject to any disclaimer, the term of this

Ri hter

6/ 1995 Felblinger et al.

2

a

7/1993

6/1995 Mortara

5,423,863 A
a

Righter

11/1994 Righter et al‘

5,421,342 A

patent is extended or adjusted under 35

3/1993

3/1993 Hubelbank et 31‘

5,226,425 A

(73) Ass1gnee: CardloNet, Inc., San Drego, CA (US)
(*)

6/1992 Mortara

5,191,891 A

Lev Korzrnov, San Drego, CA (US)

Hiyk
0

5,522,396 A

6/1996 Langeretal.

This patent is subject to a terminal dis-

5,546,950 A

8/1996 Sehoeeken et al~

(Continued)

(21) Appl. No.: 11/674,053
_

Filed:

FOREIGN PATENT DOCUMENTS
JP

Feb. 12, 2007

(65)

10-234688

US 2007/0129642 A1

OTHER PUBLICATIONS

Jun. 7, 2007

Biomedical Computer Laboratory, Institute for Biomedical Comput
ing, Washington University, “Progress Report No. 21,” Jul. 1, 1984

Related U_s_ Application Data
_

_

_

(63)

Cont1nuatron of applicatlon No. 10/762,887, ?led on
Jan. 21, 2004, nOW Pat. No. 7,194,300.

(51)

Int. Cl.
A61B 5/04

Jun. 30, 1985, 164 pages.

(Continued)
Primary Examiner * George Manuel
(74) Attorney, Agent, or Firm * Fish & Richardson PC.

(2006.01)

(52)

US. Cl. ..................................................... .. 600/518

(58)

Field of Classi?cation Search ........ .. 600/5094521;

(57)

607/25

one aspect, a method includes collecting information describ

_

ing the variability in heart rate over a series of beats, desig

References Clted

nating variability at a lower end of physiological values as

being largely irrelevant to atrial ?brillation, designating vari

US. PATENT DOCUMENTS

ability in a midrange of physiological values as being indica

4,621,617 A * 11/1986 Shanna ......................... .. 600/ 16

4,622,979 A

tive of atrial ?brillation, designating variability in an upper

11/1986 Katehls et al~

2

l

4a938,228 A

range of physiological values as being negatively indicative

glfliignk et 31‘

of atrial ?brillation, and determining a relevance of the vari

7/1990 Righter et 31‘

4,951,681 A

ABSTRACT

Systems and techniques for monitoring cardiac activity. In

See application ?le for complete search history.
(56)

ab111ty descr1bed 1n the collectlon to atr1al ?brillatlon.

8/1990 Mortara

4,958,641 A

9/1998

_

(Cont1nued)

Prior Publication Data

_

BIB.

U'S'C' 154(b)by 1104 days'

claimer.

(22)

*May 10, 2011

12/1990 Digby et al.

D326,716 S

-

US 7,941,207 B2

9/1990 Digby et al.

25 Claims, 7 Drawing Sheets

1 10
l

j

i

_

_

-

'

_

_

_

_

-

-

-

305

_

_

'

-

-

-

-

_

_

'

_

_

_

_

'

'

‘

_

_

_

_

'

_

“

“

_

_

_

_

T

_

_

_

_

_

—

-

-

'

-

-

_

-

310

-

'

'

'

320

I

5

"

-

‘1

:

i

I

DETECTOR

i'

5

|

a

5

DECISION

1

'
l

'

:

'

PROCESSOR

DETECTOR

LOGIC

i
1

|

I

VENT

:

GENERATOR

|

I

:

i

=

l

i
'

1 15

63a

US 7,941,207 B2
Page 2

U.S. PATENT DOCUMENTS
12/1996 Righter et a1.
5,581,369

D377,983
5,634,468
5,678,562
5,704,351
5,730,143
5,840,038
5,931,791
5,959,529
D414,870
5,966,692
5,987,352
6,102,856
6,178,347
6,225,901
6,226,599
6,269,263
6,287,252
6,289,243
6,308,094
6,366,871
6,490,479
6,496,731
6,564,077
6,569,095
6,664,893
6,697,655
6,871,089
6,922,584
7,187,965
7,222,054
7,311,665
7,542,878
7,693,574

2002/0065473
2002/0067256
2002/0128804
2002/0193838
2003/0028442
2003/0069486
2003/0069487
2003/0093125
2003/0122677
2003/0144597
2003/0172940
2004/0010201
2004/0085186
2005/0113703
2005/0113705

2/1997
6/1997
10/1997
1/1998
3/1998
11/1998
8/1999
9/1999
10/1999
10/1999
11/1999
8/2000
1/2001
5/2001
5/2001
7/2001
9/2001
9/2001
10/2001
4/2002
12/2002
12/2002
5/2003
5/2003
12/2003
2/2004
3/2005
7/2005
3/2007
5/2007
12/2007
6/2009
4/2010
5/2002
6/2002
9/2002
12/2002
2/2003
4/2003
4/2003
5/2003
7/2003
7/2003
9/2003
1/2004
5/2004
5/2005
5/2005

Sabri et al.
Platt et al.
Sellers
Mortara et al.

Schwaererg

Xue et al.
Saltzstein et al.

Kail, IV

Saltzstein et al.

Langer et al.
Klein et a1.
Groff et al.
Olsson

Kail, IV

Namiki
Ohnishi et al.

2005/0119833
2005/0203349
2006/0010201
2007/0100213

A1
A1
A1
A1

6/2005
9/2005
1/2006
5/2007

Nanikashvili
Nanikashvili
KorZinov
Dossas et al.

FOREIGN PATENT DOCUMENTS
JP
JP
JP
W0
W0
W0
W0
W0
W0
W0
W0
W0

Lugo

2002-301039
2004-517677
2005-523785
W0 02/056961
W0 02/085200
W0 02/085201
W0 02/086792
W0 02/086793
W0 02/086835
W0 02/086837
W0 03/077752
W0 03/077755

A2
A2
A1
A2
A2
A1
A1
A1

10/2002
6/2004
8/2005
7/2002
10/2002
10/2002
10/2002
10/2002
10/2002
10/2002
9/2003
9/2003

OTHER PUBLICATIONS

Lin et al.
Shusterman et al.
Geva
Bock
Lovett
Mortara

Savi WirelessiMobile Cardiac Telemetry Brochure, published by at
least May 2009, 12 Pages, Medicomp, Melbourne, Florida.
Extended European Search Report in Application No./Patent No.

Eveland et al.

4, 2010, 13 pages.
Cerutti, S. et al., “Analysis of the Dynamics of RR Interval Series for
the Detection of Atrial Fibrillation Episodes,” Department of Bio

Eggers

Sueppel et al.

KorZinov et a1.

Wang et a1.

Bischoff et a1.
Geva
Hawthorne et al.
Nanikashvili
Wessels

Wang et a1.
Kail, IV
Geva
Lovett

Wagstaff et al.
Sueppel et al.

Mortara
Zhu et al.

Kail, IV

Bock
Rogers et al.
KorZinov et a1.
Eveland et al.

Farringdon et al.
Fischell et al.

05711728.5-2305/170603liPCT/US2005/001849 mailed on Mar.

medical Engineering, Polytechnic University, Milano Italy, Comput
ers in Cardiology 1997, vol. 24, pp. 77-80.
Canadian Of?ce Action dated May 21, 2009.
Japanese Of?ce Action in Japanese Patent Application No. 2006
547636 dated Jun. 26, 2009 With an uncerti?ed translation.

Description of Telephone Discussion With Examiner at the Japanese
Patent Of?ce Who is examining Japanese Patent Application No.

2006-547636 (Japanese Appeal No. 2010-4938) (2 pages).

Machine translation of JP 10-234688 from Patent Abstracts of Japan

(7 pages).

Cerutti et al., Analysis of the dynamics of RR interval series for the
detection of atrial ?brillation episodes, Computers in Cardiology, pp.

77-80 (1997).
Description of Telephone Discussion With Examiner at the Japanese
Patent Of?ce Who is examining Japanese Patent Application No.

2006-547636 (Japanese Appeal No. 2010-4938) (2 pages).

Machine translation of JP 10-234688 from Patent Abstracts of Japan

(7 pages).

* cited by examiner

64a

US. Patent

May 10, 2011

Sheet 1 017

US 7,941,207 B2
100

’

105

RECEIVER
Q

“'ll'

/

110

|

115

=

i
120

FIG. 1
200

1

RR(1'1 l,n-2)

Rn-Z :4

RR(n,n_l)

I H

>5:

\'

:2

Rn-l\|

Rn \l

0

00

S

T:

>
LY—j

'

\

I

210

\k

215

\\

220

\k

Time

t

225

FIG. 2
110
' -------------------------------------------

l

i

305

310

1111111111

E

i

320

/

PROCESSOR

DETECTOR

315

__

325

E
i

5

AP

=

DECISION
LOGIC

:

DETECTOR

EVENT

/

:

GENERATOR

E

i

115

: 4

65a

US. Patent

May 10, 2011

Sheet 2 017
.

.

US 7,941,207 B2

.

M?asure

AF-type Variablllty

Measure

Variability

Variability
425

415

‘

430

End of AF-type
Variability

FIG, 4
600

COMPARE MOST RECENT R TO R INTERVAL
605
WITH PREVIOUS R TO R INTERVAL
/

I
WEIGHT COMPARISON ACCORDING TO
LIKELIHOOD OF RELEVANCE TO AF

610
/

11

ADD WEIGHTED COMPARISON TO A

/ 615

COLLECTION OF WEIGHTED COMPARISONS
FOR RECENT BEATS
V

IDENTIFY RELEVANCE OF COLLECTION TO / 620
AF

FIG. 6A
0.4

DR (n)

‘

0.3
0.2

\

\
O

0.5

'
1

1.5

2

66a

US. Patent

May 10, 2011

Sheet 3 017

US 7,941,207 B2
500

v

H

RECEIVE TIMING OF RECENT BEATS

/ 505

DETERMINE VARIABILITY IN RECENT R TO R/ 510
INTERVALS
V

IDENTIFY RELEVANCE OF VARIABILITY TO / 515
AF

i
520

VARIABILITY INDICATIVE
OF AF?

INITIATE AF EVENT
>

/

525

V

RECEIVE TIMING OF RECENT BEATS

/ 530

DETERMINE VARIABILITY RECENT R TO R / 535
INTERVALS
V

DETERMINE RELEVANCE OF VARIABILITY /540
TO AF

545

VARIABILITY INDICATIVE
OF END OF AF?

TERMINATE AF EVENT

1

Jr

/ 550

67a

US. Patent

May 10, 2011

Sheet 4 017

US 7,941,207 B2

H

(3

700

@135

$.33

@Qmpafisan SRRm)

7‘19
MG. '7

$00

805

i ................................................................. mi

;
i

3.05

; 6241‘

3w
/

SIGNAL

: QSENSOR/L“ AMPHFIER"

g

z

a

i

i

i

i

W

pRQCESSQR

/
QRS

520
/

naguoxa. -=

VENTRICULAR m

AF

5

'

c

DETECmR

BEA'I'

DETECTOR

215/
k

g

;

;

;

2 s/

32:

DFCHKN
LQGIC

E
EVENT
/ GENERA'I'OR

E

:

E

:

i

i

115

i

68a

US. Patent

May 10, 2011

Sheet 5 017

US 7,941,207 B2

420

425
415

410

405

End of V*TACH
Event

430

Three Consecutive
Ventricular Beats

9 10

915

905

FIG. 9

69a

US. Patent

May 10, 2011

Sheet 6 017

US 7,941,207 B2
1000

A

H
COMPARE RECENT R TO R INTERVALS WITH
PREVIOUS R TO R INTERVALS

1005
/

1
RECEIVE VENTRICULAR BEAT OCCURRENCE / 1010

INDICATOR
CREATE ARRAY INCLUDING RECENT
COMPARISONS AND VENTRICULAR BEAT
OCCURRENCE INDICATORS

/ 1015

1

WEIGHT COMPARISONS IN ACCORDING TO / 1020
LIKELIHOOD OF RELEVANCE TO AF

1

ASSIGN PRESET VALUE TO COMPARISONS / 1025
ASSOCIATED WITH VENTRICULAR BEATS

1
CALCULATE AVERAGE OF WEIGHTED

/ 1030

COMPARISONS (INCLUDING THOSE
ASSIGNED PRESET VALUE)
1035
AVERAGE > 0.22 FOR LAST FIVE

BEATS?

TRIGGER START OF AF EVENT INCLUDING / 1040
RECENT BEATS

FIG. 10

70a

US. Patent

May 10, 2011

Sheet 7 017

US 7,941,207 B2

1100
V

COMPARE RECENT R TO R INTERVALS WITH
1005
PREVIOUS R TO R INTERVALS
/

l
RECEIVE VENTRICULAR BEAT OCCURRENCE
INDICATOR

1010

CREATE ARRAY INCLUDING RECENT
COMPARISONS AND VENTRICULAR BEAT
OCCURRENCE INDICATORS

1015

WEIGHT COMPARISONS IN ACCORDING TO
LIKELIHOOD OF RELEVANCE TO AF

1020

1

l

V

ASSIGN PRESET VALUE TO COMPARISONS / 1025
ASSOCIATED WITH VENTRICULAR BEATS

1
CALCULATE AVERAGE OF WEIGHTED

1030

COMPARISONS (INCLUDING ANY ASSIGNED
PRESET VALUES)

1

1105

VENTRICULAR BEAT FOR
LAST THREE BEATS?

TRIGGER END OF AF EVENT INCLUDING
RECENT BEATS

11 10

|
START AND TERMINATE VENTRICULAR

TACHYCARDIA EVENT

i
T
4-

1120

AVERAGE < 0.08?

TRIGGER END OF AF EVENT

/1125

FIG. 1 1

/ 1115

71a

US 7,941,207 B2
1

2

CARDIAC MONITORING

beat. The relevance of the variability to atrial ?brillation can
be determined by determining an average relevance of vari
ability in a collection of R to R intervals.
The beat-to-beat variability can be determined in a series of

CROSS-REFERENCE TO RELATED
APPLICATIONS

successive beats, e.g., by determining the variability in an

This application claims the priority of Us. application Ser.

interval between successive R-waves. The event can be iden

No. 10/762,887, ?led on Jan. 21, 2004, now U.S. Pat. No.
7,194,300 as a continuation application. The contents of Us.

ti?ed by comparing the relevance of the variability to a ?rst
predetermined amount of relevance. Further, the relevance of

application Ser. No. 10/762,887 are incorporated herein by

the variability in the event can be compared to a second

reference.

predetermined amount of relevance to identify the end of the
event. The second predetermined amount can be lower than

BACKGROUND

the ?rst predetermined amount.
A method can include collecting information describing
the variability in heart rate over a series of beats, designating
variability at a lower end of physiological values as being

The following description relates to cardiac monitoring,

for example, by monitoring cardiac electrical activity.

The electrical activity of the heart can be monitored to track

various aspects of the functioning of the heart. Given the
volume conductivity of the body, electrodes on the body
surface or beneath the skin often display potential differences
related to this activity. Anomalous electrical activity can be

largely irrelevant to atrial ?brillation, designating variability

20

indicative of disease states or other physiological conditions
that can range from benign to deadly.

One example of such a physiological condition is atrial
?brillation. Atrial ?brillation involves the loss of synchrony
between the atria and the ventricles. In complex atrial ?bril

The variability can be designated by multiplying the infor
mation describing the variability by a weighting factor. Infor
25

lation, long-lived wavelets of depolarization travel along cir

cular paths in the atria. This can lead to irregular ventricular
beating as well as blood stagnation and clotting in the atria.
Atrial ?brillation is among the most common forms of
cardiac arrhythmia and may affect more than two million

factor DRR(n) as given by

DRR(n) = ABS(

stroke, congestive heart failure, and cardiomyopathy.

35

40

diomyopathy.

]

The variability at the lower end of physiological values can

be designated as being largely irrelevant by designating infor

physiological values can be designated as being indicative of
atrial ?brillation by designating information related to factors
DRR(n) greater than about 0.02 and less than about 0.15 as
being indicative of atrial ?brillation. The variability at the
upper range of physiological values can be designated as

being negatively indicative of atrial ?brillation by designating

SUMMARY
45

The cardiac monitoring systems and techniques described

here may include various combinations of the following fea
tures.

A method can include determining a beat-to-beat variabil

50

the variability to one of atrial ?brillation and atrial ?utter
using a non-linear statistics, identifying one of an atrial ?bril

information related to factors DRR(n) greater than about
0.157 as being negatively indicative of atrial ?brillation.
Information describing the variability can be collected by

collecting the variability in heart rate over a series of between
20 and 200 of the recent R to R intervals. The determined
relevance of the variability can be the relevance of the vari
ability to sustained atrial ?brillation. The series of R to R
intervals can be a continuous series of R to R intervals.
A method can include comparing recent R to R intervals
with preceding R to R intervals to yield a collection of com

lation event and an atrial ?utter event based on the determined

relevance. The event is a period in time when the information
content of the cardiac electrical activity is of increased rel

1

being largely irrelevant. The variability at the midrange of

also associated with stroke, congestive heart failure, and car

ity in cardiac electrical activity; determining a relevance of

RR(n, n — 1)

mation related to factors DRR(n) less than about 0.0.2 as

each ventricular beat due to, e. g., atrial scars, an atrial infarc

tion, or a re-entrant circuit encircling a portion of the right
atrium.
Atrial ?utter is less common than atrial ?brillation but is

mation describing a variability in R to R intervals over a series
of beats can be collected. The collected information can be a
function of a ratio of a ?rst R to R interval and an immediately
preceding R to R interval, such as information related to

30

people annually. Atrial ?brillation has been associated with
Another example of such a physiological condition is atrial
?utter. Atrial ?utter also involves the loss of synchrony
between the atria and the ventricles. In atrial ?utter, multiple
atrial waveforms reach the atrioventricular (AV) node during

in a midrange of physiological values as being indicative of
atrial ?brillation, designating variability in an upper range of
physiological values as being negatively indicative of atrial
?brillation, and determining a relevance of the variability
described in the collection to atrial ?brillation.

55

parisons, weighting the comparisons according to a likeli

hood that the comparisons are relevant to atrial ?brillation,
and determining the average relevance of the collection to
atrial ?brillation. The weighting can include identifying a ?rst

evance.

The end of the event can be identi?ed based on the deter
mined relevance. An event state associated with atrial ?bril
lation can be transitioned into in response to identi?cation of

of the recent beats as a ventricular beat and assigning a preset

the event. The event can be transmitted to a remote receiver 60 value to weight the ?rst beat in the collection. The preset value

from an ambulatory patient. The relevance of the variability to
atrial ?brillation can be determined by receiving information
identifying a ventricular beat and assigning a preset value

can be negatively indicative of atrial ?brillation.

The comparisons can be weighted by designating variabil

indicating that the variability is negatively indicative of atrial

?brillation.
A ventricular tachycardia event can be identi?ed based at
least in part on the information identifying the ventricular

65

ity at a lower end of physiological values as being largely
irrelevant to atrial ?brillation and designating variability in a
midrange of physiological values as being indicative of atrial

?brillation. The comparisons can also be weighted by desig

nating variability in an upper range of physiological values as

72a

US 7,941,207 B2
3

4

being negatively indicative of atrial ?brillation. A ventricular

FIG. 8 shows an example of instrumentation for cardiac

monitoring using an electrocardiogram trace.

tachycardia event can be identi?ed based at least in part on the
identi?cation of the ventricular beat. Recent R to R intervals

FIG. 9 shows an example state diagram of a cardiac moni

toring system that accommodates the variability caused by

can be compared with immediately preceding R to R intervals
to yield a collection of comparisons.

ventricular beats.
FIG. 10 shows a process for determining the variability of
recent R to R intervals and identifying if the variability is
relevant to the onset of AF while accommodating the vari

The cardiac monitoring systems and techniques may pro
vide one or more of the following advantages. Atrial ?brilla

tion (“AFib”) and/or atrial ?utter (“AFlut,” with “AF” refer
ring to either) can be distinguished from other types of cardiac
arrhythmia, such as the normal sinus rhythm irregularity,
irregularity from various types of heart blocks, and the irregu
larity associated with premature ventricular contractions. The
described systems and techniques are a practical approach to

ability caused by ventricular beats.

FIG. 11 shows a process for determining the variability in
recent R to R intervals and identifying if the variability is
relevant to the termination of AF while accommodating the

variability caused by ventricular beats.
Like reference symbols in the various drawings indicate

calculating the beat-to-beat irregularity while providing
improved positive predictability of AF. Moreover, the

like elements.

described systems and techniques are able to identify sus
tained AF episodes, where AF continues for more that
approximately 20 beats and has an increased clinical signi?
cance.

For example, when the systems and techniques described

DETAILED DESCRIPTION

20

individual 105, instrumentation 110, a signal path 115, and a

here were used to analyze the MIT-BIH arrhythmia database,
available from MIT-BIH Database Distribution, MIT Room
E25-505A, Cambridge, Mass. 02139, USA, a sensitivity to

AP in excess of 90% and a positive predictivity in excess of

receiver 120. Individual 105 can be a patient or a healthy
individual for whom monitoring of one or more biological
25

96% were obtained.

The described systems and techniques are well-adapted to

monitoring cardiac signals of ambulatory patients who are
away from controlled environments such as hospital beds or
treatment facilities. The cardiac signals obtained from to

30

ambulatory patients may be noisier and otherwise strongly

35

adapted to real-time monitoring of arrhythmia patients,

facility).

The details of one or more implementations of the inven
45

description below. Other features, objects, and advantages

will be apparent from the description and drawings, and from
the claims.

FIG. 1 shows a system in which a cardiac signal is moni
tored for medical purposes.
FIG. 2 shows an example of a cardiac signal.
FIG. 3 shows an example of instrumentation for cardiac

monitoring using a cardiac signal.

50

55

FIG. 4 shows an example state diagram of a cardiac moni

FIG. 5 shows a process for cardiac monitoring for the
60

FIG. 6A shows a process for determining the variability in
the recent R to R intervals and identifying if the variability is

FIG. 7 shows a transformation function for weighting the

variability in the timing of recent beats.

Potential difference 205 changes with time 210 in a manner
characteristic of the physiology and function of an individu
al’s heart.

Electrocardiogram trace 200 generally includes features
characteristic with particular aspects of cardiac activity. For
example, trace 200 includes a series of QRS complexes 215,
220, 225 associated with activation of the ventricles. QRS
complex 225 includes an R-wave Rn, QRS complex 220

interval between R-wave R” and R-wave Rn_l is RR(n,n—l)

and the R to R interval between R-wave Rn_ l and R-wave Rn_2

is RR(n—l,n—2).

FIG. 3 shows an example of instrumentation 110 for car

relevant to either the onset or termination of AF.
FIG. 6B shows a graph of factor DRR(n) as a function of

RR(n—l,n—2)/RR(n,n—l).

FIG. 2 shows an example of a cardiac signal, namely the
trace of a scalar electrocardiogram 200. Electrocardiogram
trace 200 follows a potential difference 205 measured
between two points on the body surface of an individual.

includes an R-wave Rn_ 1, and QRS complex 215 includes an
R-wave Rn_2. The time between successive R-waves can be
referred to as the R to R interval. In particular, the R to R

toring system during cardiac monitoring.
detection of an AP event.

instrumentation 110 (e. g., at the same hospital, nursing home,
or other medical care facility) or the receiver 120 can reside
within the same general area or vicinity as instrumentation
110 (e.g., within the same room, building, or health care

guished.

DESCRIPTION OF DRAWINGS

regarding the state of individual 105. The receiver 120 can be
a medical system in that receiver 120 presents information to
medical personnel or to a medical expert system for analysis.
The receiver 120 either can reside remotely from instrumen
tation 110 in that receiver 120 is not located at the same site as

40

before different types of cardiac arrhythmia can be distin

tion are set forth in the accompanying drawings and the

ing wired and wireless media suitable for carrying optical

receiver element for receiving the transmitted signal, as well
as various data processing and storage elements for extracting
and storing the information carried by the transmission

improved monitoring systems and techniques, such as those
described herein, are required for ambulatory patients.
where minimal delays in distinguishing between different
types of cardiac arrhythmia can speed the delivery of any
urgent medical care. The described systems and techniques
also require minimal computational resources. Further, the
described systems and techniques do not require training

signals is deemed to be appropriate. Instrumentation 10 can
include one or more sensing, calibration, signal processing,
control, data storage, and transmission elements suitable for
generating and processing the cardiac signal, as well as relay
ing all or a portion of the cardiac signal over path 115. Path
115 can be any suitable medium for data transmission, includ
and/or electrical signals. The receiver 120 can include a

impacted by the patients’ heightened levels of activity. Thus,
The described systems and techniques are also well

FIG. 1 shows a system 100 in which a cardiac signal is
monitored for medical purposes. System 100 includes an

diac monitoring using a cardiac signal such as electrocardio
65

gram trace 200. Instrumentation 110 includes a sensor 305, a

signal ampli?er/processor 310, a beat detector 315, an atrial

?brillation/atrial ?utter (AF) detector 320, decision logic 325,

73a

US 7,941,207 B2
6

5

signal output from signal ampli?er/processor 310. Event gen

and an event generator 330. Sensor 305 can include two or
more electrodes subject to one or more potential differences

erator 330 can also redact such data (e.g., by selecting the ?rst

that yield a voltage signal such as electrocardiogram trace

three minutes worth when generating the event). Handling the

200. The electrodes can be body surface electrodes such as
silver/silver chloride electrodes and can be positioned at

AF event can include transmitting the AF event over data link
115 or storing the AF event in a data storage device.
FIG. 4 shows an example state diagram 400 of a cardiac

de?ned locations to aid in monitoring the electrical activity of

monitoring system during cardiac monitoring. For example,

the heart. Sensor 305 can also include leads or other conduc

tors that form a signal path to signal ampli?er/processor 310.

state diagram 400 can relate to the operation of an assembly
such as AF detector 320 and decision logic 325 in instrumen
tation 110 (FIG. 3). State diagram 400 includes an idle state

Signal ampli?er/processor 310 can receive, amplify, and/or
process the voltage signals. The processing can include ?l
tering and digitization. The ampli?cation and remainder of

405 and an AP event state 410. ldle state 405 originates a
re?exive transition 415 and a state transition 420. AF event
state 410 originates a re?exive transition 425 and a state
transition 430. Re?exive transition 415 is associated with a

the processing can occur before or after digitization. Signal
ampli?er/processor 310 can provide the ampli?ed and/ or pro
cessed signal to beat detector 315.

series of variability measurements. State transition 420 is

Beat detector 315 is a device such as a circuit or other

arrangement that identi?es the time period between ventricu

triggered by the onset of AF-type variability as detected by

lar contractions. For example, beat detector 315 can be a QRS

such measurements. Re?exive transition 425 is associated
with another series of variability measurements. State transi

detector in that it identi?es successive QRS complexes (or an
equivalent indicator of ventricular activity) and determines
the beat-to-beat timing from the time between complexes.
The beat-to-beat timing can be determined by measuring
times between successive R-waves, such as RR(n,n—l) and

20

detector 315 can provide information regarding the time
period between ventricular contractions to AP detector 320.
AF detector 320 is a data processing device that analyzes

25

In operation, a cardiac monitoring system can start in idle
state 405 and measure the variability of a cardiac signal. For
example, the system can measure the variability in the beat

RR(n—l,n—2) in electrocardiogram trace 200 (FIG. 2). Beat

to-beat timing of successive R-waves, such as the variability

information regarding the time period between ventricular
contractions to detect AP. The detection of AF can include

distinguishing AF from other sources of ventricular irregu
larity, such as premature ventricular contraction, heart blocks,
and normal sinus rhythm irregularity. The detection ofAF can

30

35

more than 20 beats and may have relatively greater clinical
signi?cance. The detection of AF can also include the detec

tion of other types of irregularity caused by random refractory
periods of the ventricles.

logic 325, and event generator 330.
The device performing process 500 receives information
regarding the timing of recent beats it 505. The timing infor
45

determines the variability in the recent R to R intervals at 51 0.
The variability in the R to R intervals can re?ect the beat-to

50

55

goes AF at or near the time of the recent beats. Relevance can

be identi?ed by comparing the variability to a predetermined
amount of variability or to an amount identi?ed as typical for

the monitored patient.

The system can also determine if the identi?ed relevance of

60

an event associated with a short AF episode.
Event generator 330 can prepare an AP event for handling

by collecting information that summarizes the relevance of
the period identi?ed as AF from the ampli?ed and processed

beat change in heart rate over a set period or over a set number

of beats.
The system can also identify the relevance of such variabil
ity to AP at 515. The variability is relevant to AP when it is
associated with a high probability that an individual under

processing device such as AF detector 320. Decision logic
325 can also trigger the generation of an AP event by event
generator 230.

the event to the detection and/or monitoring of AF. For
example, event generator 330 can excise data associated with

mation can be received in discrete amounts (e.g., on a beat
to-beat basis) or in a collection that includes such informa

tion. Using the received timing information, the system

in a circuit or decision logic 325 can be executed by a data

Event generator 330 is a device such as a data processing
device that prepares anAF event for handling. AnAF event is
a period in time when the information content of the signal
sensed by sensor 305 is deemed to be of increased relevance
to the monitoring of AP. AP events need not be of equal or
predetermined duration. For example, an event associated
with an sustainedAF episode may have a longer duration than

example, in instrumentation 110 (FIG. 3), the activities in
process 900 can be performed at AF detector 320, decision

treats the relationship between variables as something other
than a linear function. Detail regarding an example non-linear

statistical approach to detecting AF is given below. AF detec

one or more data processing devices that perform data pro
cessing activities. The activities of process 500 can be per
formed in accordance with the logic of a set of machine
readable instructions, a hardware assembly, or a combination
of these and/or other instructions. The activities in process
500 can be performed at any of a number of different elements

in a system in which a biological signal is monitored. For
40

using non-linear statistical approaches. Non-linear statistics

tor 320 can provide information regarding the detection ofAP
to decision logic 325
Decision logic 325 is a set of instructions for determining
when theAF detected byAF detector 320 has commenced and
terminated. For example, decision logic 325 can be embodied

trace 200 (FIG. 2). Once the variability has been identi?ed as
AF-type variability, the system transitions to AP event state
410 where the system continues to measure the variability of
the cardiac signal. In AF event state 410, once the AF-type
variability has ended, the system returns to idle state 405.

the detection of anAF event. Process 500 canbe performed by

between two and 20 beats and may or may not have clinical

AF detector 320 can analyze information regarding the
time period between ventricular contractions to detect AF

between RR(n,n—l) and RR(n—l,n—2) in electrocardiogram

FIG. 5 shows a process 500 for cardiac monitoring, e.g., for

also include distinguishing between short AF episodes and
sustained AF episodes. Short AF episodes generally include

signi?cant, whereas sustained AF episodes generally include

tion 430 is triggered by the end of AF-type variability as
detected by such measurements.

65

the variability is indicative of the monitored individual under
going AF at decision 520. If not, the system returns to 505.
This return can correspond to the system remaining in idle
state 405 along re?exive transition 415 in state diagram 400
(FIG. 4). If the system determines that the results of the
monitoring are indicative of the individual undergoing AF,
the system initiates an AP event at 525. This initiation of the
AF event can correspond to the system transitioning to AP

74a

US 7,941,207 B2
8

7

Transformation function 700 is adapted to the factor DRR

event state 410 in state diagram 400 (FIG. 4). The initiation of

(n) given in equation 1. In particular, transformation function
700 is adapted to overweight factor DRR(n) when factor
DRR(n) is in a midrange of potential physiological values
(e.g., when DRR(n) is greater than about 0.02 and less than
about 0.15). Transformation function 700 is adapted to
weight factor DRR(n) as being negatively indicative of AF
when factor DRR(n) is at the upper range of potential physi
ological values (e.g., when DRR(n) is greater than about
0.157). Transformation function 700 is adapted to weight
factor DRR(n) as being largely irrelevant to AP when factor
DRR(n) is at the lower range of potential physiological values
(e.g., when DRR(n) is less than about 0.0.2). Transformation

such an event can include various activities that lead to the

generation of an event, such as triggering an event generator
to add markers to a data stream such as electrocardiogram

trace 200 or excising a relevant portion of the data stream.
The system can continue to receive information regarding

the timing of recent beats at 530. Using the received timing
information, the system determines the variability in the
recent R to R intervals at 535. The system can also identify the
relevance of such variability to the end of AF at 540. The
variability is relevant to the end of AF when it is associated
with an increased probability that AP has halted. Relevance

can be identi?ed by comparing the variability to a predeter

function 700 includes a scalar weighted comparison 705 that
varies as a function of the comparison factor DRR(n) 710. In

mined amount of variability or to an amount identi?ed as

typical for the monitored patient.

particular, weighted comparison 705 varies linearly between
points 715, 720, 725, 730, 735. The values ofpoints 715,720,

The system can also determine if the identi?ed relevance of
the variability indicates that AP has ended in the monitored
individual at decision 545. If not, the system returns to 530.
This return can correspond to the system remaining in AF
event state 410 along re?exive transition 425 in state diagram

725, 730, 735 are given in Table 1.

20

400 (FIG. 4). If the system determines that AP has ended in
the monitored individual, the system returns to 555. This
return can correspond to the system transitioning to idle state

405 in state diagram 400 (FIG. 4).

FIG. 6A shows a process 600 for determining the variabil
ity in the recent R to R intervals and identifying if the vari
ability is relevant to either the onset or termination of AF.
Process 600 can be performed independently or process 600
can be performed as part of a larger collection of activities.
For example, process 600 can be performed as part of process

25

715
720
725
730
735

0
0.0206
0.0642
0.1427
0.2

0
0.0417
0.9178
0.1005
—0.3

of the factor DRR(n) as it arises or the results of a certain
number of such interpolations can be stored in a look up table.
35

recent R to R interval (e.g., RR(n,n—1) of FIG. 2) with the

immediately preceding R to R interval (e. g., RR(n—1,n—2) of

For any value of the factor DRR(n) above 0.2, a weighted
comparison of —0.3 can be assigned.
Returning to FIG. 6A, the system performing process 600

can also add a weighted comparison to a collection of

FIG. 2) at 605. Such a comparison can yield a factor that

a factor DRR(n), given by the expression

Weight Comparison

730, 735. The interpolation can be performed for each value

trigger state transitions 420, 430 in state diagram 400 (FIG.

re?ects the beat-to-beat variability in heart rate. For example,

Comparison DRR(n)

between the weighted comparisons of points 715, 720, 725,

Various activities in process 600 can also be performed to

The system performing process 600 can compare the most

Point

In operation, weighted comparison 705 for any value of the
factor DRR(n) can be determined by linear interpolation

500, namely as steps 510, 515 or as steps 535, 540 (FIG. 5).

4).

TABLE 1

weighted comparisons for recent beats at 615. For example,
40

the system can form a FIFO stack or an array of weighted

45

comparisons having a separate data element for each of
between 10 and 200 (e. g., 100) of the most recent beats. The
system can also determine the relevance of the collection of
weighted comparisons for recent beats to AP at 620. The
collection of weighted comparisons can be relevant to either

Equation 1

the onset or termination of AF.

can re?ect the beat-to-beat variability in R to R interval and in
heart rate. A graph of factor DRR(n) as a function of RR(n—

1,n—2)/RR(n,n—1) is shown in FIG. 6B.
The system performing process 600 can also weight the

To determine the relevance, the system can sum the

weighted comparisons to arrive at a number that represents

the average relevance of the weighted comparisons in the

comparison of the most recent R to R interval with the imme

collection. The system can calculate such sums for several
beats in a row before determining that the beat-to-beat vari
ability is indicative of the onset or termination of AP. In one

that the results of the comparison are indicative of AT at 610.
The weighting can determine a role that the comparison will

implementation, the system calculates the average of the
weighted comparisons of the beats in the collection and com

50

diately preceding R to R interval according to the likelihood

play in subsequent processing cardiac monitoring activities.

55

For example, the weighting can include the whole or partial
exclusion of a certain comparisons from subsequent cardiac

monitoring activities.
One technique for weighting the comparison is through the

pares this average with a ?rst predetermined threshold to
determine if the variability is indicative of the onset ofAF and
with a second predetermined threshold to determine if the

variability is indicative of the termination of AP. In general,
the ?rst, onset threshold may be higher than the second,

use of a transformation, such as transformation function 700 60 termination threshold. The difference between the onset and

shown in FIG. 7. Transformation function 700 provides
weights that are multiplied by the value of a comparison (e.g.,
factor DRR(n)) to re?ect the relevance of the comparison to

AP. The weights provided in transformation function 700 can
be multiplied by the value of every comparison or by a
selected subset of the comparisons. One technique for select
ing such a subset is discussed further below.

termination thresholds can introduce hysteresis into the state
transitions to stabilize any system performing process 600.
FIG. 8 shows an example of instrumentation for cardiac

monitoring using an electrocardiogram trace, namely instru
65

mentation 800. In addition to sensor 305, signal ampli?er/

processor 310, AP (AP) detector 320, decision logic 325, and
event generator 330, instrumentation 800 also includes a QRS

75a

US 7,941,207 B2
10
detector 805 and a ventricular beat detector 810. QRS detec

rate. The system performing can also receive an indicator of

tor 805 and ventricular beat detector 810 can both receive an

the occurrence of a ventricularbeat at 1010. Such an indicator
can be received, e. g., from a ventricular beat detector.
The system can create an array or other data structure that

ampli?ed and processed signal from signal ampli?er/proces

sor 310. QRS detector 805 is a device such as a circuit or other

arrangement that identi?es the time period between succes

includes both the ventricular beat indicators and the R to R
interval comparisons at 1015. The array can include the ven
tricular beat indicators and the R to R interval comparisons
for between 10 and 200 (e.g., 100) of the most recent beats.

sive QRS complexes. QRS detector 805 can provide informa
tion regarding the time period between successive QRS com
plexes to AP detector 320

The system can also weight the comparisons according to the

Ventricular beat detector 810 is a device such as a circuit or

other arrangement that identi?es ventricular beats. Ventricu

likelihood that the R to R interval comparisons are relevant to

lar beats (i.e., premature ventricular beats) are irregular beats
that interrupt the normal heart rhythm. Ventricular beats gen

AP at 1020 using, e.g., transformation function 700 (FIG. 7).

The system can also assign a preset value to the R to R

interval comparisons associated with ventricular beats at
1 025. The preset value can be a penalty value in that the preset
value re?ects a decreased likelihood that the variability is

erally arise from a ventricular focus with enhanced automa

ticity. Ventricular beats may also result from reentry within
the His-Purkinje system. The occurrence of ventricular beats
is generally unrelated to AP. For example, the occurrence of
ventricular beats can be used to identify ventricular tachycar

indicative of an AP event. The preset value can be selected in

light of the approaches used to compare the R to R intervals
and to weight such comparisons. For example, when the R to

dia (e. g., when there are three or more consecutive ventricular

beats). Ventricular beats may be precipitated by factors such
as alcohol, tobacco, caffeine, and stress. Ventricular beat

20

detector 810 can monitor an electrocardiogram trace to iden

tify ventricular beats. Various systems and techniques for

identifying ventricular beats can be used. For example, the
Mortara VERITAS Analysis Algorithm, available from Mor
tara Instrument, Inc. (Milwaukee, Wis.), can be used. Ven
tricular beat detector 810 can also provide information

tricular beats can be assigned a preset value of —0.06 and R to
R intervals comparisons associated with the R to R intervals

immediately succeeding ventricular beats can be assigned a
25

regarding the occurrence of ventricular beats to AP detector
320.
Ventricular beat detector 810 can be housed together with

QRS detector 805. An example of such a joint device is the
ELI 250TM Electrocardiograph available from Mortara

30

Instrument, Inc. (Milwaukee, Wis.)

Approaches for determining the variability in recent R to R
intervals and identifying if the variability is relevant to either
the onset or termination ofAF can accommodate the variabil

ity caused by ventricular beats. FIG. 9 shows an example state
diagram 900 of a cardiac monitoring system that accommo
dates the variability caused by ventricular beats. In addition to
idle state 405 and AF event state 410, state diagram 900 also
includes a ventricular tachycardia (V-TA CH) event state 905.
Ventricular tachycardia is a rapid succession of ventricular

35

originates a state transition 910 that is triggered by the end of

50

?ed, e. g., when the rate of ventricular contractions falls below
a predetermined value (e.g., a value between 100 and 200

state transitions 430, 910, 915 in state diagram 900 (FIG. 9).
The system performing process 1100 can perform the

activities at1005,1010,1015,1020,1025,1030 as in process
1000. The system can also determine if the last three beats
have been ventricular beats at decision 1 1 05. For example, the
system can determine if the last three beats are marked with a
1010.

55

If the system determines that the last three beats have been
ventricular beats, the system triggers the end of the AF event
at 1110 and, when appropriate, terminates a ventricular tachy
cardia event at 1115. The start and termination of the ven
tricular tachycardia event can transition the state of a system
into and out of a V-TACH event, much like transitions 910,

ability caused by ventricular beats, namely a process 1000.

915 in state diagram 900 (FIG. 9).

60

When the V-TACH event has been terminated at 1115 or

when the system determines that the last three beats have not
been ventricular beats at 115, the system then determines if

cess 500, namely as steps 510, 515 (FIG. 5).Various activities
in process 1000 can also be performed to trigger state transi

the average of both the weighted and preset timing compari

tion 420 in state diagram 900 (FIG. 9).

The system performing process 1000 can compare the
recent R to R intervals with the respective, immediately
preceding R to R intervals at 1005 using, e.g., the expression
in Equation 1 to re?ect the beat-to-beat variability in heart

1100. Process 1100 can be performed independently or pro
cess 1100 can be performed as part of a larger collection of
activities. For example, process 1100 can be performed as

ventricular beat occurrence indicator such as that received at

bpm).

Process 900 can be performed independently or process 1000
can be performed as part of a larger collection of activities.
For example, process 1000 can be performed as part of pro

system determines that the average is less than or equal to
0.22 for the last ?ve beats, then the system returns to compare
the recent R to R intervals with the previous R to R interval at
1005.
FIG. 11 shows a process for determining the variability in
the recent R to R intervals and identifying if the variability is
relevant to the termination of AF while accommodating the

ous activities in process 1100 can also be performed to trigger

45

such as a myocardial infarction. AF event state 410 originates
a state transition 910 that is triggered by the occurrence of
three consecutive ventricular beats. V-TACH event state 905

FIG. 10 shows a process for determining the variability in
recent R to R intervals and identifying if the variability is
relevant to the onset of AF while accommodating the vari

Using both the weighted and preset timing comparisons,

the system can calculate the average value of an entry in the
array of the most recent beats at 1030. If the system deter
mines that the average is greater than 0.22 for the last ?ve
beats at decision 1035, then the system triggers the start of an
AP event in the recent beats at 1040. On the other hand, if the

part ofprocess 500, namely as steps 535, 540 (FIG. 5). Vari

caused by an abnormal focus of electrical activity in a ven
tricle. Ventricular tachycardia can last from a few seconds to

a V-TACH event. The end of a V-TACH event can be identi

preset value of zero.

variability caused by ventricular beats, namely a process
40

contractions (e.g., between 140 and 220 per minute) generally
several days and can be caused by serious heart conditions

R intervals are compared using Equation 1 and the resulting
comparisons are weighted using transformation function 700
(FIG. 7), R to R interval comparisons associated with ven

65

sons in the array of the most recent beats has dropped below
0.08 at decision 1120. If the average has not dropped below
0.08, the system returns to compare the recent R to R intervals
with the previous R to R interval at 1005. On the other hand,

76a

US 7,941,207 B2
11

12

when the average has dropped below 0.08, the system triggers

depending upon the manner in which the timing of beats is
compared. Weight 705 can be interpolated in any of a number
of different ways such as a cubic spline between points 715,

the end of the AF event at 1125. This triggering can transition
the state of a system out of an AP event, much like transition

430 in state diagram 900 (FIG. 9).
Various implementations of the systems and techniques

720, 725, 730, 735. Cardiac monitoring can be performed in

real time or delayed. The values of different parameters can

be changed and useful results still obtained. For example, in
FIG. 7, point 735 can be repositioned to a comparison factor

described here can be realized in digital electronic circuitry,

integrated circuitry, specially designed ASle (application
speci?c integrated circuits), computer hardware, ?rmware,

DRR(n) value above 0.2 . Accordingly, other implementations
are within the scope of the following claims.

software, and/or combinations thereof. These various imple

mentations can include one or more computer programs that

What is claimed is:

are executable and/or interpretable on a programmable sys
tem including at least one programmable processor, which
may be special or general purpose, coupled to receive data
and instructions from, and to transmit data and instructions to,
a storage system, at least one input device, and at least one

1. A device, comprising:

a beat detector to identify a beat-to-beat timing of cardiac

activity;

a ventricular beat detector to identify ventricular beats in

the cardiac activity;
variability determination logic to determine a variability in
the beat-to-beat timing of a collection of beats;
relevance determination logic to identify a relevance of the

output device.

These computer programs (also known as programs, soft
ware, software applications or code) may include machine
instructions for a programmable processor, and can be imple
mented in a high-level procedural and/ or obj ect-oriented pro

gramming language, and/or in assembly/machine language.

20

As used herein, the term “machine-readable medium” refers
to any computer program product, apparatus and/or device

an event generator to generate an event when the variability
in the beat-to-beat timing is identi?ed as relevant to the
at least one of atrial ?brillation and atrial ?utter in light

(e.g., magnetic discs, optical disks, memory, Programmable

Logic Devices (PLDs)) used to provide machine instructions

25

machine-readable medium that receives machine instructions

tor.

2. The device of claim 1, wherein the relevance determi
nation logic is to accommodate variability in the beat-to-beat

as a machine-readable signal. The term “machine-readable

signal” refers to any signal used to provide machine instruc
30

3. The device of claim 1, wherein the variability determi
nation logic is to compare times between R-waves in three

LCD (liquid crystal display) monitor) for displaying infor

35

a mouse or a trackball) by which the user can provide input to

ability in the beat-to-beat timing as a factor that is lowest

provided to the user can be any form of sensory feedback
40

including acoustic, speech, or tactile input.

The systems and techniques described here can be imple

techniques described here), or any combination of such back
end, middleware, or front-end components. The components

45

50

generate an event by performing operations comprising:

tion network). Examples of communication networks include
55

and the lntemet.
The computing environment can include clients and serv

ing approaches and transformation functions can be used,

collecting data associated with the collection of beats; and
transmitting the data associated with the collection of beats
to a remote receiver.

8. The device of claim 1, wherein the relevance determi

nation logic comprises weighting logic to:

ers. A client and server are generally remote from each other

grams such as heart sounds can be monitored. Other weight

timing as a factor that increases more rapidly when the ?rst
time grows less than the second time than when the ?rst time

grows greater than the second time.
7. The device of claim 1, wherein the event generator is to

medium of digital data communication (e.g., a communica

and typically interact through a communication network. The
relationship of client and server arises by virtue of computer
programs running on the respective computers and having a
client-server relationship to each other.
A number of implementations have been described. Nev
ertheless, it will be understood that various modi?cations
may be made. Cardiac signals other than scalar electrocardio

timing as a factor that increases non-linearly when the abso
lute difference between the ?rst time the second time grows.

6. The device of claim 4, wherein the variability determi
nation logic is to represent the variability in the beat-to-beat

of the environment can be interconnected by any form or

a local area network (“LAN”), a wide area network (“WAN”),

when a ?rst time between beats is close to a second time

between beats; and
the ?rst time immediately proceeds the second time.
5. The device of claim 4, wherein the variability determi
nation logic is to represent the variability in the beat-to-beat

back); and input from the user can be received in any form,
mented in a computing environment that includes a back-end
component (e. g., as a data server), or that includes a middle
ware component (e. g., an application server), or that includes
a front-end component (e. g., a client computer having a
graphical user interface or a Web browser through which a
user can interact with an implementation of the systems and

successive QRS complexes to determine the variability in the

beat-to-beat timing.

4. The device of claim 1, wherein:
the variability determination logic is to represent the vari

the computer. Other kinds of devices can be used to provide
for interaction with a user as well; for example, feedback

(e. g., visual feedback, auditory feedback, or tactile feed

timing caused by ventricular beats by weighting ventricular
beats as being negatively indicative of the one of atrial ?bril
lation and atrial ?utter.

To provide for interaction with a user, the systems and
techniques described here can be implemented on a computer
having a display device (e.g., a CRT (cathode ray tube) or
mation to the user and a keyboard and a pointing device (e.g.,

of the variability in the beat-to-beat timing caused by

ventricular beats identi?ed by the ventricular beat detec

and/ or data to a programmable processor, including a

tions and/ or data to a programmable processor.

variability in the beat-to-beat timing to at least one of
atrial ?brillation and atrial ?utter; and

60

65

weight variability at a lower end of physiological values as
being substantially irrelevant to the one of atrial ?bril
lation and atrial ?utter;

weight variability in a midrange of physiological values as
being positively indicative of the one of atrial ?brillation
and atrial ?utter; and
weight variability in an upper range of physiolo gical values
as being negatively indicative of the one of atrial ?bril
lation and atrial ?utter.

77a

US 7,941,207 B2
13

14

9. The device of claim 8, wherein the weighting logic is

tifying the at least one of the atrial ?brillation event and the
atrial ?utter event of the individual based on between 19 and
199 additional factors.

also to weight a beat identi?ed as a ventricular beat as being

negatively indicative of the one of atrial ?brillation and atrial
?utter.
10. The device of claim 1, wherein the relevance determi

19. The method of claim 13, wherein determining the fac

tor comprises determining DRR(n) as given by

nation logic comprises logic to identify the relevance of the
variability using a non-linear function of a beat-to-beat inter
val.
11. The device of claim 1, wherein the beat detector com

DRR(n) = ABS(

RR(n, n — 1)

1

]

prises a QRS detector.

12. The device of claim 1, further comprising a sensor that

20. An article comprising one or more machine-readable
media storing instructions operable to cause one or more

includes two or more body surface electrodes subject to one
or more potential differences related to cardiac activity.

13. A method comprising:
receiving information describing a timing of heart beats of

machines to perform operations, the operations comprising:
15

an individual;
determining a ?rst time between a ?rst heart beat and a

second heart beat of the individual, wherein the second
heart beat follows immediately after the ?rst heart beat;

determining a second time between the second heart beat
and a third heart beat of the individual, wherein the third
heart beat follows immediately after the second heart

20

beat;

evance to the one of atrial ?brillation and atrial ?utter.

21. The article of claim 20, wherein determining the rel
evance comprises:

weighting variability at a lower end of physiological values
as being substantially irrelevant to the one of atrial ?bril

lation and atrial ?utter;
weighting variability in a midrange of physiological values

identifying at least one of an atrial ?brillation event and an

as being positively indicative of the one of atrial ?bril

lation and atrial ?utter;
weighting variability in an upper range of physiological
35

40

45

weighting the factor at a lower end of physiological values
as being substantially irrelevant to the one of atrial ?bril
lation and atrial ?utter;

the method further comprise repeating the determining of
the ?rst time, the determining of the second time, and the

50

55

determining the beat-to-beat variability comprises deter

mining a factor re?ecting the difference between a ?rst

third heart beat;
the second heart beat follows immediately after the ?rst
heart beat; and
the third heart beat follows immediately after the second
heart beat.
24. The article of claim 23, wherein:
the factor is lowest when the ?rst time is close to the second

time; and

the factor increases non-linearly when the absolute differ
ence between the ?rst time the second time grows.

determining of the factor for additional heart beats to

generate additional factors; and

the identifying of the at least one of the atrial ?brillation
event and the atrial ?utter event is based on the addi
tional factors.
18. The method of claim 17, wherein identifying the at least
one of the atrial ?brillation event and the atrial ?utter event of
the individual based on the additional factors comprises iden

identifying a beat of the collection as a ventricular beat, and

time between a ?rst heart beat and a second heart beat
and a second time between a second heart beat and a

weighting the factor in a midrange of physiological values

lation and atrial ?utter; and
weighting the factor in an upper range of physiological
values as being negatively indicative of the one of atrial
?brillation and atrial ?utter.
17. The method of claim 13, wherein:

comprises:

weighting the beat as being negatively indicative of the one
of atrial ?brillation and atrial ?utter.
23. The article of claim 20, wherein:

16. The method of claim 15, wherein weighting the factor

as being positively indicative of the one of atrial ?bril

?brillation and atrial ?utter; and
determining a relevance of the weighted variability to the
one of atrial ?brillation and atrial ?utter.

the identifying of the at least one of the atrial ?brillation
event and the atrial ?utter event is based on the weighted
factor.

comprises:

values as being negatively indicative of the one of atrial

22. The article of claim 20, determining the relevance

re?ect a relevance of the factor to one of atrial ?brillation

and atrial ?utter; and

activity;

determining a relevance of the variability over a collection
of beats to one of atrial ?brillation and atrial ?utter using
a non-linear function of a beat-to-beat interval; and
identifying one of an atrial ?brillation event and an atrial
?utter event based on the determined relevance, the
event being a period in time when the information con

tent of the cardiac electrical activity is of increased rel

determining a factor re?ecting the difference between the
?rst time and the second time, wherein
the factor is lowest when the ?rst time is close to the
second time, and
the factor increases non-linearly when the absolute dif
ference between the ?rst time the second time grows;
and
atrial ?utter event of the individual based on the factor.
14. The method of claim 13, wherein the factor increases
more rapidly when the ?rst time grows less than the second
time than when the ?rst time grows greater than the second
time.
15. The method of claim 13, wherein:
the method further comprises weighting the factor to

determining a beat-to-beat variability in cardiac electrical

60

25. The article of claim 24, wherein the factor increases
more rapidly when the ?rst time grows less than the second
time than when the ?rst time grows greater than the second
time.

78a
UNITED STATES PATENT AND TRADEMARK OFFICE

CERTIFICATE OF CORRECTION
PATENT NO.

I 7,941,207 B2

APPLICATION NO.

: 1 1/674053

DATED
INVENTOR(S)

: May 10, 2011
: Lev Korzinov

Page 1 ofl

It is certified that error appears in the above-identi?ed patent and that said Letters Patent is hereby corrected as shown below:

C01. 12, Claim 5, line 46, delete “difference between the first time the second time grows.” and insert
-- difference between the first time and the second time grows. -

Signed and Sealed this

David J. Kappos
Director 0fthe United States Patent and Trademark O?ice

